SIGAR                                              Special Inspector General for
                                                    Afghanistan Reconstruction




                                                                  SIGAR Audit 13-17



       Health Services in Afghanistan: USAID Continues
       Providing Millions of Dollars to the Ministry of Public
       Health despite the Risk of Misuse of Funds




                                                                 SEPTEMBER

                                                                 2013
SIGAR Audit 13-17/Health Services in Afghanistan
SIGAR
                                                September 2013
                                                Health Services in Afghanistan: USAID Continues Providing Millions of
                                                Dollars to the Ministry of Public Health despite the Risk of Misuse of Funds



Special Inspector General for                   SIGAR AUDIT 13-17
Afghanistan Reconstruction
                                                WHAT SIGAR FOUND
WHAT SIGAR REVIEWED                             Despite financial management deficiencies at the Afghan Ministry of Public
                                                Health (MoPH), the U.S. Agency for International Development (USAID)
In July 2008, USAID and the MoPH                continues to provide millions of U.S. taxpayer dollars in direct assistance with
signed an implementation letter                 little assurance that the MoPH is using these funds as intended. Specifically,
establishing the $236 million PCH               USAID’s April 2012 assessment of the MoPH’s financial management
program. The program, which began in            capability identified significant internal control deficiencies that put U.S. funds
November 2009, supports the MoPH in             provided under the Partnership Contracts for Health (PCH) program at risk of
its delivery of health services to local        waste, fraud, and abuse. For example, the assessment found deficiencies in
Afghan clinics and hospitals. The MoPH          the MoPH’s internal audit, budget, accounting, and procurement functions.
uses USAID provided funds to contract           USAID officials stated that they have not verified what, if any, actions the
with nongovernmental organizations to           MoPH has taken to address these deficiencies. Rather, a USAID official told
provide basic health care in 13                 SIGAR that USAID has no obligation to address the deficiencies identified or to
provinces and hospital services in 5            verify any corrective actions that the MoPH may have implemented for the
provinces.                                      ongoing PCH program. In SIGAR’s view, USAID’s decision to continue
The objectives of this audit were to            disbursing funds to the MoPH with little to no assurance that these funds are
determine the extent to which (1)               safeguarded from waste, fraud, and abuse raises serious concerns about the
USAID assessed the financial                    integrity of the PCH program.
management capability of the MoPH               USAID provided $236 million for the PCH program based on a cost estimate
and (2) cost estimates for the PCH              that the MoPH developed, but which USAID did not independently validate.
program were developed appropriately.           Specifically, USAID did not prepare a comprehensive analysis of the actual
To accomplish these objectives, SIGAR           cost for the PCH program using key factors such as, among other things,
reviewed USAID policies, including              patient load, population statistics, existing infrastructure, and security. USAID
USAID and third party assessments of            officials stated that the estimate was based on historical data, but they could
the MoPH; interviewed USAID and                 not provide documentation showing how the estimate was calculated. More
MoPH officials; and examined                    than $190 million of the $236 million provided for the PCH program has been
documentation on funds obligated and            obligated. However, SIGAR’s review found that about $127 million has
disbursed for the PCH program.                  actually been spent, resulting in potential excess obligations of about $63
                                                million.



WHAT SIGAR RECOMMENDS
SIGAR recommends that the USAID Mission Director (1) provide no further funding to the PCH program until program cost
estimates are validated as legitimate; (2) develop, in coordination with the MoPH, a comprehensive action plan to address
deficiencies identified in the April 2012 ministry capability assessment, establish key milestones to monitor progress in
executing this action plan, and make additional funding for the PCH program contingent upon the successful completion of
established milestones; and (3) and validate the funds obligated and expended under the PCH program since its inception
and de-obligate any excess funds and return the funds to the U.S. Treasury or put these funds to better use.
SIGAR received comments on a draft of this report from USAID non-concurring with the first recommendation, partially
concurring with the second recommendation, and concurring with the third recommendation. USAID stated that the
safeguards it has put in place within MoPH protect taxpayer funds from misuse. However, strong evidence exists that funds
provided to MoPH are at risk of misuse. In particular, both USAID and third party assessments of the MoPH have concluded
that MoPH's systems, operations, and internal controls to manage donors' funds cannot be relied upon without substantial
corrective measures being taken.


    For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
September 5, 2013


The Honorable John F. Kerry
U.S. Secretary of State

The Honorable James B. Cunningham
U.S. Ambassador to Afghanistan

Dr. Rajiv Shah
Administrator, U.S. Agency for International Development

Mr. William Hammink
USAID Mission Director for Afghanistan

This report discusses the results of SIGAR’s audit of the U.S. Agency for International
Development’s (USAID) assessment and oversight activities of the Partnership Contracts for
Health (PCH) program. We make three recommendations to the USAID Mission Director for
Afghanistan to (1) provide no further funding to the PCH program until program cost estimates
are validated as legitimate; (2) develop, in coordination with the MoPH, a comprehensive
action plan to address deficiencies identified in the April 2012 ministry capability assessment,
establish key milestones to monitor progress in executing this action plan, and make
additional funding for the PCH program contingent upon the successful completion of
established milestones; and (3) validate the funds obligated and expended under the PCH
program since its inception and de-obligate any excess funds and return the funds to the U.S.
Treasury or put these funds to better use.
This is the second of two reports issued on the subject of USAID-funded health services in
Afghanistan. The first report—SIGAR Audit 13-9, Health Services in Afghanistan: Two New
USAID-Funded Hospitals May Not Be Sustainable and Existing Hospitals are Facing Shortages
in Some Key Medical Positions—was issued on April 29, 2013.
In commenting on a draft of this report, USAID did not concur with our first recommendation,
partially concurred with the second recommendation, and concurred with the third
recommendation. USAID’s comments and our responses to them are presented in appendix II.
USAID also provided technical comments, which we incorporated into this report, as
appropriate.

SIGAR conducted this work under the authority of Public Law No.110‐181, as amended; the
Inspector General Act of 1978, as amended; and in accordance with generally accepted
government auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                             TABLE OF CONTENTS

Background .................................................................................................................................................................. 2

USAID Continues to Fund Ministry Health Program despite Financial Management Deficiencies that Put Millions
of Taxpayer Dollars at Risk.......................................................................................................................................... 2

USAID Did Not Independently Validate the $236 Million Cost Estimate That the MOPH Developed for the PCH
Program ........................................................................................................................................................................ 8
Conclusion.................................................................................................................................................................... 8

Recommendations ...................................................................................................................................................... 9
Agency Comments ....................................................................................................................................................... 9

Appendix I - Scope and Methodology ....................................................................................................................... 11

Appendix II - Comments from the U.S. Agency for International Development ...................................................... 12
Appendix III - Acknowledgments ............................................................................................................................... 26


TABLE

Table 1 - Capability Assessment Findings for Afghan Ministry of Public Health ...................................................... 6


ABBREVIATIONS

                    ADS                                      Automated Directive System
                    GCMU                                     Grants and Contracts Management Unit

                    MoPH                                     Ministry of Public Health

                    NGO                                      Nongovernmental organization
                    PCH                                      Partnership Contracts for Health

                    USAID                                    U.S. Agency for International Development




SIGAR Audit 13-17/Health Services in Afghanistan                                                                                                                         Page i
In July 2008, the U.S. Agency for International Development (USAID) and the Ministry of Public Health (MoPH)
signed an implementation letter establishing the Partnership Contracts for Health (PCH) program. 1 PCH—a 5-
year program that began in November 2009 and is scheduled to be completed in October 2014—is intended to
provide funding to the MoPH for the delivery of health services throughout Afghanistan, ranging from
immunizations and prenatal care to hospital services, including staff, equipment, and medication. 2 Specifically,
the MoPH uses these funds to contract with health-related nongovernmental organizations (NGO) to implement
basic public health care in 13 provinces and hospital services in 5 provinces.
The PCH program has a budget of approximately $236 million. 3 These funds are delivered to the MoPH
through a host country contract, which is also a method of implementing on-budget, government-to-
government, or direct assistance programs. 4 This type of assistance involves direct delivery of funds through
host country systems using legal agreements such as implementation letters between the U.S. and Afghan
governments. These funds are executed by Afghan public financial management systems and reflected in the
Afghan national budget approved by the parliament. 5 USAID provides direct assistance primarily through
bilateral agreements and multilateral trust funds such as the World Bank’s Afghanistan Reconstruction Trust
Fund. Through mid-June 2013, USAID had obligated approximately $190 million for the PCH program, of which
about $127 million had been disbursed.
The objectives of this audit were to determine the extent to which (1) USAID assessed the financial
management capability of the MoPH and (2) cost estimates for the PCH program were appropriately
developed. To accomplish these objectives, we reviewed USAID policies related to the capability assessments
required for direct assistance as well as USAID capability assessments of the MoPH. We interviewed USAID and
Ministry officials to obtain their views on ministry capability assessments and information on how the initial
cost estimate for the PCH program was developed. We also examined documentation on funds obligated and
disbursed for the PCH program. We conducted our work in Kabul, Afghanistan from August 2012 through
August 2013, in accordance with generally accepted government auditing standards. Appendix I contains a
more detailed discussion of our scope and methodology.




1 On September 19, 2005, USAID entered into a Strategic Objective Grant Agreement (SOAG-306-07-00) to improve

education and health services in Afghanistan. The PCH program was established under this bilateral agreement.
2 The current end date for the PCH program as provided in the implementation letter is January 31, 2013. However both

USAID and MOPH officials have stated that they are negotiating and extension of the project until October 2014, at which
time a new program to support health services in Afghanistan will be implemented.
3 When the PCH program was initiated, the estimated budget, or “cost ceiling” in USAID’s terminology, for the program was

approximately $218 million. In December 2008, the program was expanded to provide additional services for hospitals in
Badakhshan and Kabul. This modification expanded the scope and increased the PCH program’s budget to approximately
$236 million. For simplicity, we refer to “cost ceiling” as the program budget.
4 USAID documentation refers to the PCH program as on-budget assistance, direct assistance, and government-to-

government assistance. For example, USAID’s Risk Management Framework for the MoPH refers to the PCH program as an
on-budget project. USAID documentation provided to the Government Accountability Office in July 2011 refers to host
country contracts, such as that used for the PCH program, as a mechanism for providing direct government-to-government
assistance. When USAID approved the PCH program in July 2008, and in a PCH fact sheet in June 2011, it referred to the
program as direct funding. USAID referred to PCH as a government-to-government program in its fiscal year 2010
certification memorandum on funding for Afghanistan. Furthermore, according to section 305.1 of the USAID Automated
Directives System (ADS) and the USAID Country Contracting Handbook 1.1, host country contracts—such as that used for
the PCH program—are used when implementing bilateral assistance. Lastly, in meetings with SIGAR staff in June 2013, the
financial controller of the USAID Mission in Afghanistan described host country contracts as a form of direct assistance. For
purposes of this report, we refer to the PCH program as direct assistance.
5   USAID Mission Order #220.01: Implementation of Projects Using On-Budget Assistance (OBA).



SIGAR Audit 13-17/Health Services in Afghanistan                                                                      Page 1
BACKGROUND

USAID is one of three key donors providing health sector assistance to the Afghan government; the other two
are the World Bank and the European Union. Through this assistance, USAID has sought to expand access to
basic public health care and increase the number of health clinics and health workers available for the Afghan
people through a two-tiered system:
       •   Basic Package of Health Services provides primary health care services—such as immunizations and
           prenatal care—at small and rural health clinics and forms the core of health service delivery for all
           primary care facilities in Afghanistan.
       •   Essential Package of Hospital Services supports the general medical services that hospitals in the
           Afghan health care system should provide—staff, equipment, diagnostic services, and medications—
           while promoting a health referral system that integrates primary health care services with hospitals. 6
The MoPH plays a stewardship role focusing on monitoring and evaluation, policy development, human
resources, and accreditation and regulation of the private sector. The MoPH contracts with NGOs to manage
and operate hospitals under the Essential Package of Hospital Services program. NGOs are required to
implement all program elements, such as ensuring that hospitals funded through the PCH program achieve
required staffing levels. The MoPH’s Grants and Contracts Management Unit (GCMU) 7 requests the program
funding from USAID, and the funds that USAID provides to the MoPH are deposited into Da Afghanistan Bank. 8
Funding for operating the hospitals is provided in advance in increments to cover operational expenses for the
subsequent 45-day period. The MoPH submits financial reports to USAID documenting costs that it and the
NGOs incur.


USAID CONTINUES TO FUND MINISTRY HEALTH PROGRAM DESPITE FINANCIAL
MANAGEMENT DEFICIENCIES THAT PUT MILLIONS OF TAXPAYER DOLLARS AT
RISK

USAID’s April 2012 assessment of the MoPH’s financial management capability identified significant internal
control deficiencies that put U.S. funds provided under the PCH program at risk of waste, fraud, and abuse.
Despite these findings, USAID continues to provide millions in direct assistance with little assurance that funds
are used as intended.


Initial USAID Capability Assessments Were Inadequate for Identifying Internal
Control Deficiencies that Put U.S. Funds at Risk of Waste, Fraud, and Abuse
USAID policy and federal internal control standards state that internal controls should be assessed to ensure
adequacy and provide reasonable assurance that operations are effective and efficient and that assets are




6 Specifically, the program states the types of medical procedures that are to be provided by different hospitals based on

its number of beds. For example, regional hospitals—which have 300 to 450 beds—can treat seizure disorders and heart
failure, whereas provincial hospitals—which have 75 to 250 beds—can treat heart failure but cannot treat seizure disorders.
If a patient at a provincial hospital suffers from seizure disorder, that patient will be referred to a regional hospital.
7 GCMU was established in 2003 within the Ministry of Public Health and serves as an interface between donors and the

MoPH in managing public health funds, particularly Basic Package of Hospital Services and Essential Package of Health
Services funds. It manages and oversees grants and contracts for health services delivery in accordance with donors’ rules
and regulations.
8   Da Afghanistan Bank is the Central Bank of Afghanistan.



SIGAR Audit 13-17/Health Services in Afghanistan                                                                   Page 2
adequately safeguarded. 9 To satisfy these requirements, in October 2007, USAID’s Office of Financial
Management conducted an assessment of the MoPH’s financial management capability. This capability
assessment focused on whether the MoPH’s operating systems, accounting and reporting policies and
procedures, and related internal controls, provided reasonable assurance that donor funds were protected
from waste, fraud, and abuse. 10 In its report, USAID’s Office of Financial Management concluded that the
MoPH’s operations were adequate for the purposes of accounting for and managing USAID funds that may be
provided directly to the MoPH.
In addition, in May 2008, USAID’s Office of Acquisition and Assistance conducted an assessment of the
capability of the MoPH’s GCMU to support USAID host country contracts. In the 2008 assessment, USAID
determined that, although certain steps were required “to strengthen the GCMU’s capacity and its
procedures,” the MoPH “has shown that they possess adequate experience and procurement capabilities to
handle procurements funded under USAID host country procurement procedures.”
However, in November 2010, USAID’s Inspector General reported that the 2007 and 2008 ministerial pre-
award assessments—which USAID used to certify the MoPH’s ability to manage the $236 million PCH
program—were inadequate and did not provide reasonable assurance of detecting significant vulnerabilities. 11
The USAID Inspector General did not assess internal controls or other aspects of MoPH operations. Rather, the
objective of the review was to determine whether USAID’s ministerial capability assessment process provided
reasonable assurance of identifying significant vulnerabilities that could result in waste or misuse of
government resources. The USAID Inspector General found, among other things, that USAID did not consider
the control environment in Afghanistan or in individual ministries in any of its pre-award ministerial capability
assessments. Further, the USAID Inspector General noted that the USAID capability assessments included little
or no testing of internal controls and that it was unclear as to what degree USAID reviewers examined
compliance with applicable laws and regulations. 12
The USAID Inspector General’s report recommended that USAID Afghanistan develop and implement suitable
policies, procedures, and practices so that ministry capability assessments provide reasonable assurance of
identifying significant vulnerabilities that could result in waste or misuse of U.S. government funds. USAID
agreed with this recommendation and took actions to enhance its capability assessment process, including
modifying the scope of work for its ministry capability assessments. 13
Our review found that the two assessments conducted by USAID of the MoPH consisted primarily of
observations, walk-throughs, and documentation reviews and that USAID conducted little testing of internal
controls. While the USAID Inspector General’s report made no statement as to whether USAID met USAID policy
requirements in conducting these capability assessments, our analysis indicates that USAID did not meet its
requirements for assessing the internal controls of the MoPH. Specifically, USAID policy requires that the

9 USAID ADS sections 301.1 and 305.1 require that host country capability assessments be conducted prior to awarding a

host country contract. See also GAO/AIMD-00.21.3.1, Standards for Internal Control in the Federal Government, November
1999.
10 This review also examined whether the organizational structure of the MoPH was adequate for the purpose of managing

USAID funding; whether the MoPH’s policies allowed USAID access to their books and records in accordance with USAID’s
requirements; and whether the Afghan government had sufficient capacity to advance cash disbursements.
11 USAID Office of the Inspector General, Review of USAID/Afghanistan’s Ministerial Assessment Process: F-306-11-001-S,

November 6, 2010.
12 In addition, the USAID Inspector General found that USAID assessments did not include substantive information on

controls over fixed assets.
13 Concurrent with its efforts to address these recommendations, USAID developed ADS Chapter 220, “Use of Reliable

Partner Country Systems for Direct Management and Implementation of Assistance,” in August 2011. This chapter provides
the policy directives and required procedures for determining the suitability of using partner country systems for
implementation of USAID-funded assistance for programs to be initiated in the future. According to USAID officials, this
USAID policy does not apply to the PCH program because, in their view, PCH is not an on-budget or government-to-
government program. However, as stated previously, our analysis and USAID documentation clearly show that it is direct
assistance. See note 4, supra.



SIGAR Audit 13-17/Health Services in Afghanistan                                                                  Page 3
financial controller for the Mission ensure the adequacy of accounting systems and internal controls of the
contracting entity—in this case the MoPH. Internal control standards for the federal government state that
controls are intended to provide reasonable assurance that program goals and objectives are met and that
resources are adequately safeguarded. 14 However, as stated in the USAID Inspector General’s report, the
capability assessments of the MoPH conducted by USAID do not provide this assurance.


USAID Did Not Reevaluate the PCH Program after the USAID Inspector General
Identified Weaknesses in the Initial Ministry Assessments
Despite the USAID Inspector General’s findings indicating funding provided to the PCH program could be at risk
of waste and misuse of U.S. government resources, there is no documentation showing that USAID reassessed
operations within the MoPH to determine whether funds provided under the PCH program were at risk.
According to the financial controller at USAID’s Mission for Afghanistan, the USAID Inspector General’s findings
were not specific to host country contracts—such as that used for the PCH program—but were generalized to
pre-award ministry capability assessments. Specifically, he stated that the USAID Inspector General’s review
was initiated to determine whether prior USAID ministry capability assessments—including the 2007 and 2008
assessments of the MoPH—were sufficient for the purposes of determining whether the ministries had the
capability to manage direct assistance programs that may be awarded in the future. However, an official with
the USAID Inspector General’s office provided documentation stating that the review was conducted to
determine whether USAID’s ministry assessment process provided reasonable assurance of identifying
significant vulnerabilities that could result in waste or misuse of U.S. government resources. This official did
not specify that the review looked only at funding that may be awarded in the future. Further, the USAID
Inspector General’s report specifically discusses USAID’s capability assessments of the MoPH in its findings.
The financial controller at USAID’s Mission for Afghanistan also asserted that host country contracts do not
constitute direct assistance, and claimed on that basis that the findings of the USAID Inspector General’s
report do not apply to the PCH program. However, our review of USAID documents and USAID’s response to our
inquiries indicate that the PCH program, which is implemented through a host country contract, is direct
assistance, and, therefore, the USAID Inspector General’s findings are applicable to the 2007 and 2008
assessments. Moreover, calling the program a host country contract does not change the fact that it is direct
assistance. USAID policy and federal internal control standards are clear in requiring that internal controls be
assessed to ensure adequacy and provide reasonable assurance that operations are effective and efficient
and assets are adequately safeguarded. 15 Without ensuring that resources are adequately safeguarded, USAID
had little assurance that PCH program funds would be used for their intended purposes.


Subsequent External Assessment by a Public Accounting Firm Found Significant
Internal Control Deficiencies in the MoPH
In November 2011, USAID contracted with a public accounting firm to conduct another pre-award capability
assessment of the MoPH. 16 One of the assessment’s objectives 17 was “to determine whether the MoPH had


14   GAO/AIMD-00.21.3.1, Standards for Internal Control in the Federal Government, November 1999.
15USAID ADS sections 301.1 and 305.1 require that host country capability assessments be conducted prior to awarding a
host country contract. See also GAO/AIMD-00.21.3.1, Standards for Internal Control in the Federal Government, November
1999.
16 This capability assessment was conducted to determine whether the MoPH had sufficient financial management

systems and capacity to manage funds for the Health Expanded program, which would provide $102 million through on-
budget funding.
17 The capability assessment’s five objectives were to determine whether (1) the MoPH had the capability to perform host

country contracting in accordance with USAID procurement regulations, (2) the MoPH’s financial management/accounting
system is adequate to properly manage and account for funds, (3) the MoPH’s internal controls are adequate, (4) the



SIGAR Audit 13-17/Health Services in Afghanistan                                                                  Page 4
sufficient financial management systems and the capacity to manage funds in accordance with Afghan
government rules and regulations and USAID host country contracting requirements.” 18 This capability
assessment considered key areas based on USAID guidelines applicable to host country contracts, set forth
pre- and post-award disbursement conditions, and included a section specifically on the MoPH’s operation of
the PCH program. USAID officials claimed that this capability assessment was not conducted as a result of the
USAID Inspector General’s findings from 2010. The scope for this assessment, which was completed in April
2012, was similar to the scope of the 2007 and 2008 USAID pre-award capability assessments. 19 Specifically,
these assessments covered the MoPH’s budget procedures, accounting and internal controls, and
procurement capabilities. However, unlike the previous capability assessments, the April 2012 capability
assessment revealed numerous significant internal control weaknesses. For example, weaknesses identified in
the April 2012 capability assessment included the following areas:
       •   Accounting and Treasury Functions
                o   Salary payments for some directors were paid in cash, which exposes the MoPH to risk of
                    misappropriation.
                o   No double entry accounting system was used in maintaining books, which can affect the
                    reliability and completeness of financial information produced by the MoPH.
                o   A documented policies and procedures manual for the finance directorate did not exist.
                o   External financial audits were not being performed as required by international auditing
                    standards.
       •   Procurement Functions
                o   Policies and procedures for procurement activities were not documented.
                o   Bid evaluation criteria or a vendor evaluation process for vendor registration was not
                    documented.
                o   Controls over legal vetting of procurement contracts did not exist.
       •   Internal Audit
                o   The Internal Audit team does not have relevant professional qualifications required for
                    performing audits.
                o   A documented Internal Audit charter and established key performance indicators did not
                    exist.
                o   Risk assessments were not prepared to assess the impact and likelihood of risks in
                    preparation of audit plans.
       •   Budget Procedures
                o   No budget committee existed for preparing a budget.
                o   Budget procedures for revenues did not exist.
                o   Reasons for variances from the development budget are not formally documented.
Table 1 shows the results for some key areas that were reviewed in the 2007 and 2008 assessments and the
2012 pre-award assessment of the MoPH.



MoPH’s procurement management units have sufficient systems and management capacity, and (5) the MoPH complies, in
all material respects, with applicable laws and regulations.
18   Ernst & Young, Final Report on Pre-Award Assessment: Ministry of Public Health, (RFP# 30611048), 12 April 2012.
19 The 2007 and 2008 USAID capability assessments covered budget procedures, accounting and treasury functions,

internal audit, procurement and planning, finance, internal control and audit. The external accounting firm’s 2012
capability assessment covered corporate governance structure and control environment, financial management, budgeting
and accounting systems, personnel policies and procedures, procurement and purchasing systems, and program
management and monitoring.



SIGAR Audit 13-17/Health Services in Afghanistan                                                                  Page 5
Table 1 - Capability Assessment Findings for Afghan Ministry of Public Health
                                                                                                2012 Pre-award Capability
     Function                  2007/2008 USAID Capability Assessment Results
                                                                                                      Assessment

Internal audita           Satisfactory                                                        Critical area needing
                                                                                              improvement prior to disbursing
                                                                                              funds

Budget proceduresa        Satisfactory                                                        Critical area needing
                                                                                              improvement prior to disbursing
                                                                                              funds

Accounting and            Satisfactory                                                        Critical area needing
treasury functionsa                                                                           improvement prior to disbursing
                                                                                              funds

Procurement               Procurement system is capable of handling procurements funded       Critical area needing
functionsb                under USAID’s host country procurement procedures                   improvement prior to disbursing
                                                                                              funds

Source: SIGAR review of the 2007 and 2008 USAID assessments and the 2012 external pre-award assessment of the MoPH.
aIdentified   in 2007 capability assessment conducted by USAID’s Office of Financial Management.
bIdentified   in 2008 capability assessment conducted by USAID’s Office of Acquisitions and Assistance.


 USAID Never Verified the MoPH’s Corrective Actions in Response to the April 2012
 Capability Assessment, But Continues to Provide Hundreds of Millions of U.S.
 Taxpayer Dollars in Direct Assistance to the MoPH
 USAID officials stated that, due to the lack of personnel, they have not verified what, if any, actions the MoPH
 has taken to address the findings of the April 2012 assessment. Although USAID maintains that it has no
 obligation to address the deficiencies identified in the USAID Inspector General’s report or the April 2012
 capability assessment, because the capability assessment was done in anticipation of providing future direct
 assistance, USAID has provided the MoPH some guidance to help it address those deficiencies. In September
 2012, 5 months after the capability assessment, USAID provided a Risk Management Framework (Framework)
 to the MoPH, which listed deficiencies from the April 2012 capability assessment, risks associated with those
 deficiencies, required corrective actions, and timeframes for implementing corrective actions. 20 However, the
 Framework simply repeats information contained in the April 2012 capability assessment. Using the
 Framework, MoPH officials stated that they developed an action plan to address the April 2012 capability
 assessment deficiencies and have made some progress in addressing them. The financial controller for
 USAID’s Mission for Afghanistan noted, however, that USAID has not taken any steps to determine whether the
 actions the MoPH says it has taken were actually taken, and if they were, whether those actions adequately
 address the deficiencies identified in the April 2012 capability assessment.
 The financial controller reiterated his assertion to us during the course of our review that the 2012
 assessment’s findings are not relevant to the PCH program because it is a host country contract and not a
 direct assistance or government-to-government program. He stated that the 2012 capability assessment was
 conducted to determine the MoPH’s capability to manage future direct assistance programs. He acknowledged

 20 According to USAID policy, after the completion of an assessment of financial management, USAID’s Office of Financial

 Management should develop a Risk Management Framework to summarize assessment findings, identify pre-
 disbursement conditions, and recommend measures that will mitigate the weaknesses and vulnerabilities. See USAID
 Mission Order #220.01: Implementation of Projects Using On-Budget Assistance (OBA).



 SIGAR Audit 13-17/Health Services in Afghanistan                                                                     Page 6
that the 2012 capability assessment included a review of the PCH program and specifically stated that it was
conducted to assess the MoPH’s capability to manage host country contracts, such as the PCH program. He
added, however, that it was a forward-looking capability assessment and that, therefore, USAID has no
obligation to address the deficiencies identified or to verify any corrective actions that the MoPH may have
implemented for the PCH program. Further, in June 2013, USAID provided documentation stating that if the
agency enters into a government-to-government direct assistance agreement with the MoPH in the future, it
might address internal control weaknesses as a pre-condition to the agreement or try to mitigate the
weaknesses. Contrary to these assertions, USAID documentation, as well as discussions with other USAID
officials, identifies the PCH program as government-to-government assistance and a direct assistance
program. 21
Additionally, in January 2013, USAID prepared a Stage II Risk Assessment Report 22 as part of USAID’s approval
of a proposed direct assistance program, which may replace the PCH program once it ends in October 2014.
This stage II assessment report—which was based on, among other things, the findings of the 2012 capability
assessment—concluded that the MoPH’s financial management and accounting system, internal controls, and
procurement management units did not have sufficient systems and management capacity to implement
activities and manage donors’ funds. 23 Additionally, USAID concluded that the internal control environment is
not adequate to mitigate risk of corruption as several key controls are not implemented, and it is unclear if the
Afghan government, including the MoPH, has the capacity to combat corruption effectively. 24 However, USAID
has not taken any steps to put risk mitigation procedures in place or assist the MoPH in taking corrective
action to ensure that the funds that are disbursed to the MoPH under the PCH program are used as intended
because—according to USAID—this risk assessment is only for review of future funding programs.
In commenting on a draft of this report, USAID stated that it has been coordinating with the MoPH since May
2013 to comprehensively address the deficiencies identified in the 2012 ministry capability assessment.
According to USAID, MoPH-GCMU reported that, to date, the Ministry has mitigated 22 of 55 action items
addressing the risk areas identified in the capability assessment. USAID added that it will validate the 22
reportedly completed action items by the end of September 2013, and it will confirm and verify the completion
of the remaining 33 corrective actions by the end of November 2013.
The April 2012 ministry capability assessment stated that enhancements to the MoPH’s internal control
structure needed to be made prior to disbursing donor funds to it. However, despite the results of this
capability assessment, USAID has continued to provide funding for the PCH program—about $79 million in
obligations and nearly $42 million disbursed since the capability assessment was released. As of June 6,
2013, about $109 million of the $236 million budget remained to be disbursed. USAID provided
documentation stating that the opinion of the external auditor that conducted the April 2012 capability
assessment is the viewpoint of the certified public accounting firm that conducted the assessment and not
that of the U.S. government. However, as noted previously, USAID policies require the financial controller of the
USAID mission to ensure that the contracting agency—in this case the MoPH—has accounting and internal

21   See our earlier discussion of this issue and note 4, supra.
22 USAID ADS Chapter 220 requires an in-depth risk assessment to be completed by USAID that includes such testing of

Public Financial Management systems as necessary to validate overall systems operations and internal controls, and
identify performance risks.
23   It also found that the MoPH did not fully comply with Afghan procurement laws and regulations.
24 In November 2012, the USAID Administrator, pursuant to ADS section 220.3.2.2, waived USAID Afghanistan’s

requirement to comply with ADS Chapter 220 procedures in order to avoid impairment of U.S. government foreign
assistance objectives. Specifically the waiver claimed that while USAID Afghanistan had not fulfilled every step in the ADS
Chapter 220 process because the USAID Afghanistan never conducted required capability assessments, doing so at the
time would undermine the U.S. Government’s foreign assistance and foreign policy objectives, and is also unnecessary.
This waiver will apply to all funds appropriated and made available to USAID Afghanistan through and including fiscal year
2013 appropriations. The waiver also noted that the government-to-government assistance activities through 2014,
including the PCH program, are planned at an estimated obligation level of approximately $2.4 billion using appropriated
funds for fiscal years 2011, 2012, and 2013.



SIGAR Audit 13-17/Health Services in Afghanistan                                                                     Page 7
controls that are adequate. 25 USAID’s decision to continue disbursing funds to the MoPH for the PCH program,
with little to no assurance that these funds are safeguarded from waste, fraud, and abuse, raises serious
concerns about the integrity of the PCH program.


USAID DID NOT INDEPENDENTLY VALIDATE THE $236 MILLION COST
ESTIMATE THAT THE MOPH DEVELOPED FOR THE PCH PROGRAM

USAID budgeted $236 million for the PCH program based on a cost estimate that—according to both MoPH
and USAID officials—the MoPH developed. USAID did not independently validate this cost estimate which
suggests that USAID’s budgeting methods at the inception of the program were ineffective. For example, USAID
did not prepare a comprehensive analysis of the actual cost for the PCH program using key factors such as
patient load, population statistics, existing infrastructure, seasonal variations, and the security situation in
each province. USAID officials stated that the program cost estimate was developed based on historical data,
but they could not provide documentation showing the methodology used to calculate the estimate. As a result,
we could not determine the accuracy and reliability of the $236 million direct assistance estimate for the PCH
program.
Our review of USAID’s disbursements and obligations indicates that about 67 percent of funds obligated for
the PCH program were spent as of June 2013. Specifically, through June 2013, USAID obligated more than
$190 million for the PCH program. However, actual PCH expenses were about $127 million, resulting in
potential excess obligations of about $63 million. 26 Given the questions raised concerning the validity of the
cost estimate and the current ratio of obligations to disbursements, the excess obligations could be de-
obligated and returned to the U.S. Treasury for better use or set aside pending USAID’s validation of the actual
cost estimate.
Federal internal control standards state that internal control activities should ensure adherence to
requirements for budget development and execution. 27 Further, federal cost estimating guidelines specify that
conducting an independent review of an estimate is crucial to establishing confidence in the estimate. 28 The
independent reviewer should verify, modify, and correct an estimate to ensure realism, completeness, and
consistency. To help achieve this, federal cost estimating guidelines state that high quality cost estimates
should be well documented, comprehensive, accurate, and credible. To date, USAID has not documented how
the PCH program cost estimate was derived. USAID’s lack of documentation on how cost estimates for the PCH
program were derived as well as the fact that it has yet to validate the existing cost estimate makes it difficult
for program managers and policy makers to ensure that funds are being allocated to areas of greatest need.


CONCLUSION

U.S. funding for the PCH program is at high risk of waste, fraud, and abuse. USAID is providing funds without
assurance that the MoPH has adequate accounting systems and internal controls to account for and protect
these funds. USAID maintains that the program funds are provided through a host country contract and,
therefore, do not constitute direct assistance. Consequently, USAID believes it has no obligation to assess the
MoPH’s internal controls beyond examining those controls to support certification of the procurement system.
However, USAID documents unmistakably show that the PCH program—implemented through a host country
contract—constitutes direct assistance. Therefore, the MoPH should receive a vigorous assessment of its
internal controls. Setting aside definitional differences, USAID policy requires the Mission to ensure that the

25   USAID ADS section 301.2.
26   As of August 1, 2013, the amount of funds left to be expended was $49 million.
27   GAO/AIMD-00.21.3.1, Standards for Internal Control in the Federal Government, November 1999.
28   GAO-09-3SP, GAO Cost Estimating and Assessment Guide, March 2009.



SIGAR Audit 13-17/Health Services in Afghanistan                                                           Page 8
host government has adequate accounting systems and internal controls prior to awarding a host country
contract. In April 2012, an auditing firm contracted by USAID reported that improvements were needed in the
MoPH’s budgeting, accounting, and procurement systems prior to disbursing donor funds. Alarmingly, a USAID
official told us that the agency has no obligation to address the deficiencies identified or to verify any corrective
actions that the MoPH may have implemented for the ongoing PCH program. In our view, this is a reckless
disregard toward the management of U.S. taxpayer dollars. To date, USAID continues to provide funds—$42
million since the April 2012 assessment—to the MoPH.
The MoPH maintains that it has taken some steps to address the internal control deficiencies identified in the
2012 capability assessment. However, USAID has not made any effort to verify the corrective actions the MoPH
says it has taken. Moreover, USAID relied on the MoPH to develop an initial cost estimate to determine the
agency’s contribution to the PCH program. This unsupported estimate for the program, combined with USAID’s
failure to independently validate program funding requirements, has led to excess obligations of nearly $63
million. USAID’s desire to help the MoPH improve the health of Afghans is certainly laudable, but that does not
relieve USAID from its responsibility to ensure that U.S. funds expended under this program are properly
accounted for and used for their intended purposes. Without proper assurances that the accounting system
and internal control deficiencies identified in the 2012 ministry capability assessment have been sufficiently
addressed, USAID should not provide additional funding to the MoPH for the PCH program.


RECOMMENDATIONS

To improve the pre-award assessment process, develop realistic budgets, and ensure proper stewardship and
transparency of U.S. funds provided to the Afghan government, we recommend that the USAID Mission
Director,

    1. Provide no further funding to the PCH program until program cost estimates are validated as
       legitimate.
    2. Develop, in coordination with the MoPH, a comprehensive action plan to address the deficiencies
       identified in the 2012 ministry capability assessment, establish key milestones to monitor progress in
       executing this action plan, and make additional funding for the PCH program contingent upon the
       successful completion of the established milestones.

    3. Validate the funds obligated and expended under the PCH program since its inception and de-obligate
       any excess funds and return the funds to the Treasury or put these funds to better use.


AGENCY COMMENTS

We received written comments on a draft of this report from USAID and made revisions to the report, as
appropriate. USAID did not concur with the first recommendation, partially concurred with the second
recommendation, and concurred with the third recommendation. Along with its written comments, USAID
provided new supporting documentation that we had asked for on multiple occasions, but which USAID
officials told us they could not locate by USAID during the course of the audit.
Overall, USAID took strong exception to the title of our draft report and any implication that there is a high risk
of misuse of funds for the PCH program. According to USAID, the establishment of the GCMU greatly enhanced
the MoPH’s ability to manage public funds for the implementation of the Basic Package of Health Services and
Essential Package of Health Services programs through international and national NGOs. We have strong
evidence that leads us to conclude that funds provided to the MoPH under the PCH program are at risk of
misuse. Specifically, both USAID and third party assessments of the MoPH have concluded that USAID cannot
rely on MoPH’s systems, operations, and internal controls to manage donors’ funds without substantive




SIGAR Audit 13-17/Health Services in Afghanistan                                                              Page 9
measures being taken. However, we acknowledge USAID’s comments on our title and have deleted any
characterization of the degree to which there is a risk of misuse of funds.
USAID believes that additional information provided with its written comments substantiates the initial cost
estimate developed by a USAID implementing partner consultant in conjunction with the GCMU. On that basis,
USAID did not agree with our first recommendation to withhold further funding to the PCH program until
program cost estimates are validated as legitimate. However, USAID did not provide evidence of its
independent validation of this estimate. As noted earlier in this report, federal cost estimating guidelines
specify that conducting an independent review of an estimate is crucial to establishing confidence in the
estimate. In addition, USAID did not provide any supporting documentation for the historic costs that were used
as a baseline for calculating the estimate. Therefore, we maintain that our recommendation is appropriate and
valid and needs to be acted on.
USAID partially concurred with our second recommendation. USAID stated that it has been coordinating with
the MoPH since May 2013 to “comprehensively address” the deficiencies identified in the April 2012 ministry
capability assessment. While we acknowledge USAID’s efforts in working with MoPH to take necessary risk
mitigation measures, USAID has not verified MoPH’s actions as sufficient to address the risks identified in the
capability assessment. Therefore, we believe that making future funding to the MoPH contingent upon
successful completion of the established milestones is vital in safeguarding U.S. taxpayers’ money until USAID
achieves complete verification of MoPH’s action plan.
USAID concurred with our third recommendation and stated that it has validated the funds obligated and
expended under the PCH program since its inception and has determined that there are no excess funds to de-
obligate. We welcome USAID’s efforts in regard to this recommendation. However, a significant amount of
funds remain to be expended under the program—$49 million as of August 1, 2013. Additionally, only $190
million of the program’s $236 million cost ceiling has been obligated, resulting in about $46 million available
for use if necessary. Therefore, we believe that it is not appropriate to close the recommendation. We will
reexamine the PCH program funding in October, 2014, which is closer to the program’s completion date, and
determine at that time whether any action by USAID remains to be taken and whether closure of this
recommendation is appropriate.




SIGAR Audit 13-17/Health Services in Afghanistan                                                        Page 10
APPENDIX I - SCOPE AND METHODOLOGY

In August 2012, SIGAR initiated an audit of the U.S. Agency for International Development (USAID) assessment
and oversight processes as they relate to the funding of hospitals in Afghanistan. The objectives of this report
were to determine the extent to which (1) USAID assessed the financial management capability of the MoPH,
and (2) cost estimates for the PCH program were developed appropriately. We reviewed documents for the
period May 2007 through June 2013.
To determine the extent to which USAID assessed the financial management capability of the MoPH, we
examined USAID policies regarding assessment requirements for direct assistance. We also examined USAID
assessments conducted to satisfy these requirements as well as reports examining the efficacy of these
assessments. We examined the PCH program assessment conducted by the external certified public
accounting firm and reviewed the extent to which the MoPH and USAID had taken steps to address
deficiencies identified in this assessment. We also interviewed USAID officials to obtain their views as to the
applicability of these assessments to the PCH program as well as obtain views on the extent to which USAID is
responsible for addressing deficiencies identified in audits of this program. Lastly, we interviewed Ministry of
Public Health officials to obtain information on the extent to which USAID had provided input and guidance on
addressing deficiencies identified in previous assessments.
To determine the extent to which budget estimates for the PCH program were developed appropriately, we
examined obligations and disbursements for the PCH program from inception in November 2009 through June
2013. We examined federal internal control and cost estimation guidelines to evaluate USAID cost estimation
and validation activities. We also spoke to USAID and MoPH officials regarding how PCH program cost
estimates were derived as well as the extent to which USAID validated estimates.
We did not rely on computer-processed data in conducting this audit. We considered the impact of compliance
with laws and fraud risks. We assessed internal controls in the process of conducting assessments and
developing initial cost estimates through our review of USAID policies and procedures and the pre-award
assessment process. The results of our assessment are included in the body of the report.
We conducted our audit work in Kabul, Afghanistan from August 2012 through August 2013, in accordance
with generally accepted government auditing standards. These standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. SIGAR performed this audit under the authority of
Public Law No. 110-181, as amended; the Inspector General Act of 1978, as amended; and in accordance
with generally accepted government auditing standards.




SIGAR Audit 13-17/Health Services in Afghanistan                                                         Page 11
APPENDIX II - COMMENTS FROM THE U.S. AGENCY FOR INTERNATIONAL
DEVELOPMENT




                                                      SIGAR Comment 1




SIGAR Audit 13-17/Health Services in Afghanistan                Page 12
                                                                                2


                  while ensuring funding is properly sateguarded. As a key measure to
                  address our fiduciary and stewardship responsibility and mitigate risks
                  under the host-country contracting modality of assistance, USAID chose
                  to implement the PCJ I program using the MoPH Grants and Contract
                  Management Unit (GCMU). This unit was established in 2003 under
                  USAID and other donor technical assistance programs. The
                  establishment of the GCMU greatly enhanced the ability of the MoPH to
                  manage public funds for the implementation of the Basic Package of
                  Health Services (BPI IS) and the Essential Package of Hospital Services
                  (EPHS) programs through international and national NGOs.

                  The GCMU is responsible for ensuring proper procedures arc followed
                  for procurement, contract and financial management, monitoring and
                  evaluaUon, and coordination with other donors and MoPH stakeholders
                  in compliance with donor requirements. The GCMU staff funded by
                  USAID provides these services specific to the PCII program activities
                  and funds. 1l is in part because of the GCMU that the MoPH and USAJD
                  have had such a strong success with the PCI-1 program over the past
                  several years and confidence in the management of the funds for the PCH
                  program.

                  USAID is committed to strengthening the MoPH as a provider of services
                  to the people of Afghanistan and as a reliable steward of Afghan and
                  donor resources. ln 2012, USATD assessed the capacity of the MoPH'
                  along with 12 other Government of the lslamjc Republic of Afghanistan
                  (GtRoA) ministries. The MoPH assessment was part ofUSAID's
                  forward-looking effort to identity strengths and weaknesses in the
                  capacities of key ministries and to select areas to target for improvement.
                  Per current USAlD policy, these assessments - and addressing identified
                  weaknesses - arc a necessary precondition to direct government to
                  government (G2G) assistance that relics on GlRoA procurement.
                  financial, and other systems without reliance on host country contracting
                  procedures or the involvement of a special, donor- funded unit like the
                  GCMU.

                  Given the MoPII capacity issues USAID has identified in the past, along
                  with those identified in the 2012 assessment, the GCMU was and
                  contiJwes to he a necessary safeguard to ensure proper management of
                  lJSG funds w1der the PCH program. Only after all of the material
                  weaknesses identified in the assessment arc adequately addressed will

                  1
                      April. 21112 f Ina/ Repon   011   l' re-AI!'artl Assessme/11 MiniSITJ' of l'uhi/C' 1/ealth




SIGAR Audit 13-17/Health Services in Afghanistan                                                                   Page 13
                  USAJD be able to move forward with providing direct assistance to the
                  MoPH without the extra protections the GCMU provides.

                  USAJD continues to provide technical support to the MoPH to improve
                  its capacity to plan and manage activities, allocate resources, increase
                  human resource capacity, strengthen health information and logistics
                  systems, and monitor and evaluate the BPHS and the EPHS programs.

                  Since the subject audit's field work was concluded, USAID and the
                  MoPH have made substantial progress in addressing the
                  recommendations included in the assessmem. or the 55 items identified
                  in that document, the MoPH reports it has addressed 22, with review by
                  USAJD of the remaining items expected by the end of November 2013.
                  Again, no USAID funds will flow directly to the MoPH without the
                  involvement and oversight of the GCMU until USAID has verified that
                  all 55 ofd1ese items have been addressed.

                  US AID is proud of the achievements realized for the health sector
                  through PCII, which delivers the BPHS and EPilS in more than 530
                  health facilities and 5,000 health posts in 13 out of the 34 provinces. The
                  PCH-supported non-governmental organization (NGO) contracts in 13
                  provinces serve roughly half of the population of Afghanistan.

                  As a result of U.S. assistance through the PCII program. millions of
                  people in rural Afghanistan now have access to primary health care for
                  the ftrst time. Since 2002, the number of functioning primary health care
                  facilities bas increased from an estimated 498 to about 2,100 in 2012.
                  Over this same time period, the number of Community Health Workers
                  increased from 624 to 4,950, making health services more accessible to
                  women. Each month. more than one million patients visit USAID-
                  supported PCH health faci lities. Three-quarters of those served are
                  women and children.

                  The annual Survey of the Afghan People! repeatedly has documented the
                  positive perception generated ofGIRoA as a result of the services
                  delivered by the health sector, including in large measure those provided
                  with USAID funds.




SIGAR Audit 13-17/Health Services in Afghanistan                                                Page 14
                                                   SIGAR comment 2




                                                   SIGAR comment 3




SIGAR Audit 13-17/Health Services in Afghanistan              Page 15
                                                   SIGAR comment 4




SIGAR Audit 13-17/Health Services in Afghanistan                 Page 16
                                                      6


                  the health sector described above and elsewhere. As demonstrated in the
                  costing data provided in Tab I , and in the details in Tab 3. provided on
                  June 6, 2013 to the SIGAR auditors, USAID estimates that most of the
                  balance of funds will be expended during the planned PCH extension.

                  Following standard USAID procedures. USAID will de-obligate any
                  remaining excess funds determined closer to the actual PCH end-date. In
                  addition, USAJD notes that the current pipeline of funds is less than 12
                  months, well within the guidelines allowed under ADS 602.3.2.

                  Based on the above, we request SIGAR·s concurrence to the closure of
                  Recommendation 3.


                  Attachments:
                  Tab I : Additional information on PCI I cost estimates
                  Tab 2: Funds obligated and expended under PCH since its inception
                  Tab 3: Information on usc of PCH funds, provided to SIGAR auditors on
                  June 6, 2013



                  cc: U.S. Embassy/ KabuJ Coordination Directorate




SIGAR Audit 13-17/Health Services in Afghanistan                                              Page 17
                                                         7



                   TAB I: Add itional information on PCH cost estimates

                   ln July 2008, the Partnership Contracts for llealth (PCH) was originally
                   authorized with a ceiling of$218,22 1.257. The Action Memo (which
                   constituted the Program Approval Action Memorandum or PAAM and
                   accompanied Implementation Letter [ILJ #6) includes in its Program
                   Description a Financing Plan with funding requirements that were;

                         ·' ... estimates derived from historic costs for delivering lthe Basic
                         Package oflJealth Services] BPHS and lthe Essential Package of
                         llospital Services] EPI-IS services to the thirteen provinces, and
                         increased annually by five percent (5%) for inOation and two and
                         one-halfperccnt (2.5%) tor program expansion."

                  The historic cost estimates referenced were compiled by a USAID
                  Tmplemcnting Partner (Management Sciences for Health) consultant with
                  the assistance of Ministry of Public Health (MoPH)/Grants and Contract
                  Management Unit (GCMU) and USAlD staff. The estimates provide
                  details on how the costs were derived, including number and type of
                  facility, actual cost history. management costs (such as salaries), etc. 1be
                  detailed cost estimates are attached as two Excel spreadsheets for
                  reference and are in US AID files. Some of the specific assumptions
                  included:

                      • [Basic health centcrj BHC average annual cost-; for whole PCH is
                        $20,000
                      • lCommunity health center! CHC average a1mual costs for whole
                        PCH is $55.000
                      • Subcenters average annual costs for whole PCH is $15.000
                      • CHC+ and [District Hospital] DH costs were based on their actual
                        cost history
                      • Badakhshan (health facility] HF costs arc higher. The costs below
                        arc based on actual cost history. see detail.
                      • Management costs were computed at 80% of the direct HF costs.
                      • Some adjustments were made to the management costs.

                  In September 2008. n~ #7 modified the original IL #6. expanding the
                  scope ofPCH and increasing its ceiling from $218,221,257to
                  $236,455.840. The increase was designed to cover the costs, over live
                  years, of support to Faizabad Provincial Hospital maternity ward in the
                  Badakhshan EPHS contract ($1.657.689) and to Wazir Akbar Khan
                  Hospital (W AKH) in Kabul ($ 16.576.894). The Action Memo which
                  accompanied IL #7 notes that the cost estin1ate for the Faizabad maternity




SIGAR Audit 13-17/Health Services in Afghanistan                                                  Page 18
                  ward was obtained from the UNFPA, which had previously funded it, and
                  included a five percent (5%) increase in each subsequent year. The cost
                  estimate for WAKH wao; based on historical costs incurred by USAID
                  through a prev.ious grant to Lorna Linda University to provide technical
                  assistance and support to WAKH, plus a five percent (5%) increase in
                  each subsequent year.

                  Additional IL amendments realigned the existing budget of$236,455,840
                  to accommodate emerging needs such as the expansion ofBPHS to 80
                  Key Terrain (Quick Impact) districts in the East and South, the extension
                  of the EPHS to Farah Provincial Hospital. and the add ition of I0 prison
                  health centers (IL # I0); the movement, on-budget, of equipment
                  procurement by implementing NGOs, and technical assistance to the
                  MoPlVGCMU, both of which had been previously funded by USAlD
                  through an off-budgetlmplemcnting Partner's project (IL # 15); and the
                  movement, on-budget, ofthe Conununity Midwifery Education program,
                  which had been previously funded by USAlD through an off-budget
                  Implementing Partner's project (IL #18).

                  llowever, for a variety of reasons, some of the original costing
                  assumptions did not materialize and some of the planned activities were
                  never implemented. For example, although 5 percent per year was
                  figured into calculations for inflation in budget out-years, inflation was
                  less than expected. Ln addition, management costs for non-governmental
                  organizations (NGOs) contracted under PCH were less than expected as
                  the result of an MoPH decision to solicit only one NGO grant per
                  province rather than two or three. 'l11e MoPII also had anticipated more
                  international NGOs with higher management costs (e.g., for travel.
                  housing. security, etc.) to apply for the PCH grants. Ultimately, the
                  MoPH ended up awarding more contracts to national NGOs, thus
                  resulting in lower overall costs.

                  Furthermore, a number of activi ties were not implemented or were ended
                  prematurely. For instance. the grant for WAKII (implemented by the
                  international NGO IMC) was terminated due to pcrfonnance issues: the
                  EPHS contract to Farah Provincial Hospital was never awarded because
                  the World Bank (which traditionally funds NGOs to implement
                  BPIIS/EPHS in Farah province) decided to absorb the Provincial Hospital
                  in its program; the 2.5 percent increase for program expansion was
                  curtailed in 2011: equipment was procured only once under PCH rather
                  than every one or two years as done under previous programs:
                  MoPH/GCMU staff were not moved on-budget as originally planned; and
                  the 80 Quick Impact districts originally envisioned for incorporation into




SIGAR Audit 13-17/Health Services in Afghanistan                                               Page 19
                                                        9


                   PCH never materialized because of a mandate by the MoPII to keep
                   management costs low by only allowing one donor per province.

                   As a result of the above, overall costs for PCI I have been somewhat
                   lower than the original ceihng, thus allowing for some of the new
                   activities through budget alignments mentioned above. Tab 3 provides
                   detai ls on how the funds will be utilized, including through an extension
                   ofPCH.

                   Attachments:
                      I . PCH Budget prepared July 2008
                     2. PCH Budget ceiling request detail prepared June 2008




SIGAR Audit 13-17/Health Services in Afghanistan                                                Page 20
                                                          10


                   TAB 2: Funds obligated and expended under PCH since its inception

                      MoPH_PCH_Obligation & Disbursement Transactions_August U , 2013

                        Year             Month   .   Obligation          Disbursement
                   - 2008        JUI~                  4,000.000.00
                   2008Total                           4,000,000.00
                   -2009         September
                                 November              28.812.936.69
                   2009Total                           28,.8U,9l6.69
                   - 2010        March                                       2. 958.664.00
                                 Apnl                                        3,320.456.00
                                 Ma\                                         3,372,265.00
                                 .:.me                                       3,228,910.00
                                 .uly                   8.500.000.00
                                 September                                   9.0U 587.00
                                 Octooer                                     5 326.376.00
                   2010Total                            8.500,000.00        27,2:18,258.00
                   · 20U         "'ebruary             15.000,000.00         6,070.82.1.00
                                 March                                       8,892 301.00
                                 June                                       10.373,689.69
                                 .u l~                 10.213, 367.75
                                 Aug uS"                                     5.421 .042 00
                                 Oc:ooer              45,000.000.00          ~ 332 2G4.00
                                 Novel'llber                                 ~ 785,628.00

                   2011Total                          70,213,367.75         39,875,685.69
                     2012       February                                    10.603,693.00
                                March                                        3.625 796.00
                                Apr I                                        4 203.605.00
                                May                                          5 ,586. ~ - 00

                                Julv                                         i .tn. l52.00
                                Sept;;omber                                  -!497 261.00
                                Octob-er               7S, 760, 6~. 78       5 .700,601.00
                                 Noven'lber                                 3.563.095.00
                   20UTotal                           18,760,605.18        40,957,587.00
                     2013       Ja'luary                                     6.065A13.00
                                •ebruarv                                     5.016 730.00
                                Maret.                                       3 289,969.00
                                Aprol                                        s. ~2. 5-l4 .oo
                                June                                        8.653.470.00
                                July                                        !;.131.984.00
                   20l3Total                                               13,200,110.00




SIGAR Audit 13-17/Health Services in Afghanistan                                               Page 21
                                                        11



                   TAB 3: Information on use of PCH funds, provided to SIGAR
                   auditors on June 6, 2013

                   Att 1 Response on use of PCH funds 6-6-l013.docx

                   SIGAR Request: "Information from the technicaJ office on how excess
                   obligations for the PCH program may be used""

                   USAID Response: The obligated amount is not '"excess" as it is well
                   under the approved project ceiling of$236 million. The project still has
                   an w1obligated balance of$46 million. Secondly, the obligated amount is
                   not transferred to MoPH or GIRoA upon obligation. Rather,
                   disbursements to the MoPH is subject to lJSAlD"s further approvals upon
                   receiving MoPH requests for advances which arc followed by the
                   corresponding liquidation reports and arc subject to availability of funds.
                   Regarding the usc of funds, the Partnership Contracts for Health Services
                   (PCH) program plans on using the current pipeline to achieve the
                   project's objective of support for the delivery of the Basic Package of
                   Health Services (BPI IS) and Essential Package of Hospital Services
                   (EPHS) in 13 provinces through health facilities that are run by NGOs
                   contracted by the MoPH. Obligated funds will achieve PCH objecti es in
                   the following ways:

                      • Continue to provide the Basic Package of Health Services and
                        the Essential Package of Hospital Services - All sub-obligations
                        made under PCH directly contribute to USAID/Aighanistan's
                        Assistance Objective Two: Improved Health of the Population.
                        Continued support for the provision of BPHS and EPHS lead to
                        further significant decreases in the maternal, infant and under-five
                        mortality rates and increases in contraceptive use.
                      • Extension of PCH service delivery contracts -USAID expects to
                        continue support for the delivery of quaJiry health services through
                        the BPI IS and EPHS in a nun1bcr of provinces during the 20 I 4
                        Transition and into the Transformation Decade (20 15-2024).
                        I Iowever, a series of administrative and policy issues based on the
                        proposed implementation plan for USATD's future health sector
                        support has delayed the approval of the new US/\1D 2014-2018
                        Integrated Health Services and System Strengthening Program
                        (lHSSSP). These unplanned delays, coupled with the 12 month or
                        longer procurement time line for the NGOs. indicate that there
                        would be a significant gap in health care service provision between
                        the services provided under the PCH program and the actual start-
                        up of the new NGO contracts under lHSSSP. In order to secure




SIGAR Audit 13-17/Health Services in Afghanistan                                                 Page 22
                                                      12



                        and consolidate the significant achievements obtained in the past
                        decade, as well as prevent a damaging gap in the existing levels of
                        health care service provision, OSSD has determined U1at a time
                        extension of the PCH program would be necessary. Accordingly,
                        USAID has approved a one-year extension ofPCIJ. This extension
                        will be funded under the approved PCH ceiling, and does not
                        require funds beyond those already approved.
                      • Implementation of the National Salary Policy (NSP) -
                        Implcmentation of the NSP going forward will result in increased
                        bum rates as the salaries of personnel paid through PCI I are
                        harmonized and increased.
                      • Support a new round of Community Midwifery Education -
                        Procurement of new contracts under J>CH for Community
                        Midwifery Education is now underway, and will require additional
                        resources.
                      • Plan for lengthy procurement timelines - Obligatjon of funds via
                        Implementation Letters (ILs) presents a significant management
                        burden to USAID, the Ministry of Finance, and the Ministry of
                        Public I.Iealth . Previous ILs have taken several months to be
                        fmalized, and as a result USAJD prefers not to wait until 75% of
                        obligated funds are disbursed in order to commence a new
                        obligation of funding.




SIGAR Audit 13-17/Health Services in Afghanistan                                              Page 23
                  SIGAR Response to U.S. Agency for International Development Comments
    1. It is the U.S. Agency for International Development’s (USAID) position that establishment of the
       Ministry of Public Health (MoPH) Grants and Contract Management Unit (GCMU) was critical to
       address USAID’s fiduciary and stewardship responsibility and mitigate risks under the Partnership
       Contracts for Health (PCH) program. While we acknowledge that GCMU was put in place to strengthen
       the MoPH’s capacity to undertake procurement actions using U.S. funds under the PCH program,
       USAID’s own assessment of MoPH in January 2013 concluded that the U.S. government cannot rely
       on MoPH’s systems, operations, and internal controls to manage donors’ funds. In making this
       conclusion, USAID considered not only the April 2012 capability assessment of MoPH, but USAID’s
       internal reviews, meetings, and research on the MoPH’s systems. Additionally, the April 2012 ministry
       capability assessment reviewed the GCMU and noted deficiencies within the unit. Furthermore,
       USAID’s risk schedule prepared in January 2013 for MoPH, in conjunction with the Approval of Partner
       Country Systems, assigned a score of “critical” to all risks identified as part of USAID’s assessment,
       and it noted that these risks were probable and that the impact of these risks ranged from “serious” to
       “catastrophic.” Therefore, we believe that there is sufficient evidence to conclude that USAID funds
       provided to MoPH under the PCH program are at a risk of misuse. However, we have made a change
       to the title based on USAID comments, and do not believe that there is compelling evidence that
       warrants any further changes to the title of the report.


    2. We acknowledge the receipt of additional documentation that USAID provided us, which consists of
       two spreadsheets supporting the calculation of the initial cost estimate for the PCH program.
       According to USAID this estimate—prepared on July 16, 2008—was compiled by a USAID implementing
       partner consultant with GCMU’s assistance. Although the two spreadsheets provide the calculation of
       the estimate, they do not provide evidence of USAID’s independent validation of this estimate, as
       called for under federal cost estimating guidelines. In addition, USAID states that the estimates were
       derived from historic costs for delivering the Essential Package of Health Services and Basic Package
       of Health Services. However, USAID did not provide any supporting documentation for those historic
       costs. Therefore, unless and until USAID provides sufficient and reliable documentation supporting the
       historical cost figures used in the calculation and evidence of USAID’s independent validation of the
       estimate we believe our recommendation should be implemented.

    3. USAID noted that it has been coordinating with the MoPH since May 2013 to comprehensively address
       the deficiencies identified in the April 2012 ministry capability assessment. Specifically, USAID stated
       that MoPH-GCMU has reported that to date, the Ministry mitigated 22 of the 55 action items
       addressing the risks identified in the capability assessment. USAID added that it will “validate the 22
       reportedly completed action items by the end of September 2013” and will “confirm and verify the
       completion of the remaining action items by the end of November 2013.” While we acknowledge that
       USAID has started coordinating with the MoPH on the Ministry’s action plan to address the
       deficiencies identified in the capability assessment, it has not verified the actions that MoPH-GCMU
       claims to have completed. Therefore, we believe that making future MoPH funding contingent upon
       successful completion of the established milestones is a necessary measure to hold MoPH
       accountable for the implementation of those important safeguards. We will follow up with USAID at the
       end of November 2013 to obtain documentation on USAID’s complete verification of MoPH’s actions
       and will then determine whether it is appropriate to close this recommendation.

    4. USAID stated that it has validated the funds obligated and expended under the PCH program since its
       inception and has determined that there are no excess funds to de-obligate. USAID added that the
       current pipeline of funds will be required to cover the estimated costs of a 1 year extension of the PCH
       contracts, through October, 2014. However, a significant amount of funds still remain to be expended
       under the program—$49 million as of August 1, 2013. Additionally, only $190 million of the program’s



SIGAR Audit 13-17/Health Services in Afghanistan                                                       Page 24
        $236 million cost ceiling has been obligated, resulting in about $46 million still available for use if
        necessary. Therefore, we believe that it is not appropriate to close the recommendation. We will
        reexamine the PCH program funding in October, 2014, which is closer to the program’s completion
        date and determine, at that time, whether USAID has taken the appropriate action and whether
        closure of this recommendation is appropriate.




SIGAR Audit 13-17/Health Services in Afghanistan                                                           Page 25
APPENDIX III - ACKNOWLEDGMENTS

Nick Torres, Senior Audit Manager
Robert Rivas, Analyst-in-Charge
Dinusha Jayasinghe, Senior Auditor




SIGAR Audit 13-17/Health Services in Afghanistan   Page 26
                                   This audit report was conducted under
                                         project code SIGAR-068A.




SIGAR Audit 13-17/Health Services in Afghanistan                           Page 27
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs              •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs            •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
